-512
No..

w

/A

IN THE SUPREME COURT
OF THE UNITED STATES OF AMERICA

Kevin Tyrell Beach
Petitioner,
vs.
State of Florida,
Respondent.

On Petition for a Writ of Certiorari to
the Supreme Court of Florida

PETITION FOR WRIT OF CERTIORARI
AND
ANY OTHER RELIEF DEEMED NECESSARY AND PROPER

Received
JUL 1 3 2021

Kevin Tyrell Beach
Petitioner
2092 Champions Way
North Lauderdale, FL 33068
Tel: 954-210-2008
Email: beachkevinlO@yahoo.com

•luealMEcol|g£g<
Other Involved Parties to Proceedings: Fred Seraphin, Lisa Stewart, Harold
Pryor, Kathleen Rubio, Jonathan David Gerber, Burton Cornell Conner, Edward L
Artau, Jorge Labarga, Charles Alan Lawson, Carlos Genaro Muniz, John Daniel
Couriel, Jamie Rutland Grosshans.

Questions Presented
1. Does it constitute “bad faith conduct” of “abuse of discretion’ when a judge
denies a defendant’s numerous pre-trial requests for “stand-by” counsel, in
which, the denials later becomes the result of a mistrial when a defendant
invokes his constitutional “right to counsel” during trial (especially if there
are other alternatives available other than declaring a mistrial)?
2. If an indigent “pro se” defendant invokes his right to counsel after a jury
is sworn in and impaneled, can a judge or prosecutor initiate crucial
confrontation with a defendant (to obtain consent for a mistrial), outside the
presence of an attorney?
3. Can a layman, pro se defendant legally consent to a mistrial without a court
first “laying a record” inquiry to demonstrate that consent was
unequivocally, intelligently and voluntarily made?
4. Is a defendant federally protected by his double jeopardy rights when a state
trial court or plaintiff (the State) fails to demonstrate a manifest injustice or
legal consent adequately on the record before a declaration of a mistrial?
5. Is a defendant federally protected when a state court violates his state and
federal constitutional rights, such as a double jeopardy violation, and does
this constitutional violation create irreparable harm, or departs from the
essential requirements of law?
6. Can a State district court of appeals dismiss or deny a defendant access of
justice by dismissing a claim of irreparable harm in a writ of prohibition, and
are there sanctions or incentives for them to comply swiftly?
7. Does a State court have jurisdiction to proceed on a case that is federally
prohibited by a double jeopardy prohibition bar?
8. Can claims of irreparable harm be remedied on direct appeal? If a state
district court of appeals dismisses a petitioner’s “writ of prohibition” after
claims and an adequate showing of a double jeopardy violation, and are those
claims federally protected?
9. Is a defendant required to exhaust all state remedies just to receive
protection from a federal double jeopardy prohibition bar?

I

I

10. What immediate relief is a defendant entitled to (specifically a defendant
who cannot afford an attorney and his court appointed attorney has refused
to address those issues, and a defendant that may not be intelligent in expert
capacity to adequately provide notice to a court)?
11. Can a federal court provide a remedy to make it easy for pro se, layman
defendants to present these issues by filling out a “ready-made” “qualifying
paper document (form) to address these issues without it being stricken as
“hybrid representation” (If a defendant is deprived of life, liberty, or property
because he is denied a federally protected constitutional right -such as a
double jeopardy violation)?
12. When adequate and immediate relief cannot be obtained swiftly in any form
or by any other state court-- under what circumstances does a defendant’s
double jeopardy rights become invoked, what automatic, prompt, or legal
vehicle/remedy is available for a defendant, and can a defendant adequately
discharge himself from a case upon a clear and adequate showing of a
federally protected constitutional right such as a double jeopardy violation?
What is the proper immediate vehicle available to obtain prompt relief of a
violated constitutional right?
13. Will it constitute “abuse of discretion” to deny a petitioner’s meritorious and
valid writ when there is no other available remedy to relieve irreparable
harm in violation of a constitutional right (In both federal and State law)?
14. If a defendant is deprived of life, liberty, or property because he is denied
valid double jeopardy protection, Will this deprivation essentially also violate
his due process rights?
15. Can a State Supreme Court make a ruling that dramatically contradicts its
prior opinions, rulings, and State Constitution; does their contradictory
rulings violate federal law when it impedes on a petitioner/defendants
constitutional rights (such as a double jeopardy violation)?

LIST OF PARTIES
[x] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover-page. A list of all
parties to the proceeding in the court whose judgement is the subject of this petition
is as follows:
Fred Seraphin, Lisa Stewart, Harold Pryor, Erica Arboleya, John William Resnik
III, Jonathan David Gerber, Burton Cornell Conner, Edward L Artau, Jorge
Labarga, Charles Alan Lawson, Carlos Genaro Muniz, John Daniel Couriel, Jamie
Rutland Grosshans.

Petitioner: Kevin Tyrell Beach (Email: beachkevinlO@yahoo.com), Respondent:
State of Florida, Appointed County Judge: Fred Seraphin (Bar Id: 656607 Email:
fseraphin@judll.flcourts.org), Defense Counsel: Lisa Stewart (Bar Id: 9792
Email: lisavlaw@gmail.com), State Attorney: Harold Pryor (Bar Id: 102800 Email:
haroldpryor@gmail, saol7@saol7.state.fl.us), Assistant State Attorney: Kathleen
Rubio (Bar Id: 1019603 Email: krubio@saol7.state.fl.us), Fourth District Court
of Appeals Appellate Panel: Jonathan David Gerber (Bar Id: 982539 Email:
gerberj@flcourts.org), Fourth District Court of Appeals Appellate Panel:
Burton Cornell Conner (Bar Id: 254551 Email: connerb@flcourts.org), Fourth
District Court of Appeals Appellate Panel: Edward L Artau (Bar Id: 764353
Email: artaue@flcourts.org), Florida Supreme Court Panel: Jorge Labarga (Bar
Id: 293547 Email: vickersb@flcourts.org), Florida Supreme Court Panel: Charles

Alan Lawson (Bar Id: 709591 email: lawsona@flcourts.org), Florida Supreme
Court Panel: Carlos Genaro Muniz (Bar Id: 535001 Email: conlanb@flcourts.org),
Florida Supreme Court Panel: John Daniel Couriel (Bar Id: 831271 Email:
hudsons@flcourts.org), Florida Supreme Court Panel: Jamie Rutland Grosshans
(Bar Id: 26148 Email: grosshansj@flcourts.org.

A. TABLE OF CONTENTS

Page

A. TABLE OF CONTENTS

n, in

B. TABLE OF CITATIONS

iv, v

C.STATMENT OF JURISDICTION

1-2

D. TIMLINESS AND AUTHORITY

2

E. CONSTITUTIONAL PROVISIONS INVOLVED

3

F. NATURE OF RELIEF SOUGHT (Cohens v. Virginia, 19 U.S. (6Wheat) 264, 404,
5 L. Ed 2571821 grants U.S. Supreme Court jurisdiction for certiorari review in
cases that violate constitutional rights. Deprivation of a constitutional right departs
from the essential requirements of law and creates irreparable harm in which cannot
be remedied by direct appeal)
4-5
G. STATEMENT OF THE CASE AND STATEMENT OF THE FACTS

5-11

I. Introduction.

5-6

II. Factual and Procedural Background

6-9

III. Requests for Relief of Irreparable Harm and Denials of Access to the
Courts and Justice (Writ Petitions)................................................................. 9-11
H. SUMMARY OF ARGUMENT

11-13

I. REASONS FOR GRANTING THE WRIT

13- 18

I. ARGUMENT AND CITATIONS OF AUTHORITY.
J. ISSUES PRESENTED (CONFLICTS WITH LAW AND
CASES)...............................;.......................................................

n

13- 18

18-19

K. CONCLUSION

19- 20

L. INDEX TO APPENDIX

21

M. CERTIFICATE OF SERVICE

21-22

N. CERTIFICATE OF COMPLIANCE

23

ill

B. TABLE OF CITATIONS AND AUTHORITIES
Cases
Page
Cohens v. Virginia, 19 U.S. (6Wheat) 264, 404, 5 L. Ed 257 (1821)
United States v. Jorn, 400 US 470 - Supreme Court 1971
Downum v. United States, 372 U. S. 734 (1963)
Illinois v. Somerville, 410 U. S. 458 (1973)

4
13-15
13
13-16

Breed v. Jones, 421 U. S. 519, 529-530 (1975)

14

Serfass v. United States, 420 U. S. 377 (1975)

14

Cooper v. Aaron, 358 U.S. 1, 78 S. Ct. 1401 (1958)

14

Abney v. United States, 431 U.S. 651 (1977)

14

Wade v. Hunter, 336 U. S., at 689

15

Oregon v. Kennedy, 456 U.S. 667 1982

16

Johnson v. Zerbst, 304 U. S. 458, 462-463 (1938)

17

Powell v. Alabama, 287 U. S. 45 (1932)

17

Gideon v. Wainwright, 372 U. S. 335, 344-345 (1963)

17

Belair v. Drew 770 So.2d 1164 -Florida Supreme Court 2000

18

Williams v. Spears, 719 So.2d 1236 -Fla. 1st DCA 1998

18

Allen v. Wright, 468 U.S. 737, 751 1984

20

w

Steffel v. Thompson, 415 U.S. 452, 459 n. 10 1974

20

Younger v. Harris, 401 U. S. 37 1971

20

Samuels v. Mackell, 401 U. S. 66, 1971

20

Constitutions, Statutes, and Rules
U.S. Const. Art. Ill, Section 2

1, 19

U.S. Const, amend. XIV.

3, 17
passim

U.S. Const, amend. V
U.S. Const, amend. VI

1, 3, 12, 17

28 U.S.C Section 1254

3

28 U.S.C Section 1651

3

U.S.C Title 42 Section 1983

3

U.S.C Title 42 Section 1985

3

7, 18

Fla.R. Crim.P. 3.111

v

\

C. STATEMENT OF JURISDICTION
In reliance on Article III, Section 2, of the U.S Constitution, which grants the
Supreme Court jurisdiction in “all Cases, in Law and Equity, arising under this
Constitution, the Laws of the United States, and Treaties made, or which shall be
made, under their Authority.” Therefore, under its language, all cases arising under
federal law are within its grant of appellate jurisdiction. That conclusion is
reinforced by the Supremacy Clause of Article VI, which makes federal law superior
to state law. State court decisions involving federal law are reviewable by the
federal courts. There are simply no further steps that can be taken in the state
courts to provide relief and avoid the trial the defendant maintains is barred by the
Fifth Amendment’s guarantee.
The Florida Supreme Court, hereinafter FSC, have entered its judgement on
May 6th, 2021 in case no. SC21-515 (see: Appendix la). The Florida Supreme Court
has apparently refused to review the petitioner’s Writ of Certiorari and has
erroneously treated the petitioner’s writ of certiorari as a “Writ of Mandamus”. The
Florida Supreme Court has erroneously dismissed the petitioner’s writ of certiorari,
refused to provide relief, and refused to entertain a rehearing or reinstatement on
the cause. The Florida Supreme Court judgement clearly goes against the
petitioner’s federally protected constitutional rights, creating irreparable harm and
1 | Page

departs from the essential requirements of law. The Florida Supreme Court is a
“state court” of last resort that apparently decided an important federal question
that conflicts with the federal constitution, the state’s constitution, and its own
prior decisions of authority. The Florida Supreme Court’s decision questions the
validity of a properly invoked double jeopardy prohibition and its petitioner’s rights
for protection. The Florida Supreme Court’s decision inflicts irreparable harm onto
the petitioner, deprives him of his state and federal constitutional rights and denies
him access to the courts for relief and justice.
The Florida Supreme Court erroneous decision invokes jurisdiction of this
court pursuant to 28 U.S.C. § 1254 and 1651 (a), in which compels this court to
grant the petitioner access to relief and justice of his constitutional rights.

D. TIMELENESS AND AUTHORITY
Rule 13 of the Supreme Court provides that a petition for a writ of certiorari
seeking review of a lower state court that is subject to discretionary review by the
state court of last resort is timely when it is filed with the Clerk of Court within 90
days after entry of the order denying discretionary review. (See date of Order) See
Appendix la.

2 | Page

E. CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1. This case involves the Fifth Amendment to the United States Constitution,
which provides, in relevant part, that,
No person shall be... subject for the
same offence to be twice put in jeopardy of life or limb ... deprived of life,
liberty, or property, without due process of law;”
2. The Fourteenth Amendment provides, in relevant part: No State shall . . .

deny to any person within its jurisdiction the equal protection of the laws.
3. This case involves USC Title 42 Sec. 1983, which provides, in relevant part,

that, “ Every person who, under color of any statute, ordinance, regulation,
custom, or usage, of any State... subjects, or causes to be subjected, any
citizen of the United States or other person within the jurisdiction thereof to
the deprivation of any rights, privileges, or immunities securities by the
Constitution and laws, shall be liable to the party injured in an action at law,
suit in equity, or other proper proceeding for redress.”
4. This case involves USC Title 42 Sec. 1985, which provides, in relevant part,
that, “If two or more persons in any State or Territory conspire, for the
purpose of depriving, either directly or indirectly, any person or class of
persons of the equal protection of the laws, or of equal privileges and
immunities under the laws; or for the purpose of preventing or hindering the
constituted authorities of any State or Territory from giving or securing to all
persons within such State or Territory the equal protection of the laws; in
any case of conspiracy set forth in this section, if one or more persons
engaged therein do, or cause to be done, any act in furtherance of the object of
such conspiracy, whereby another is injured in his person or property, or
deprived of having and exercising any right or privilege of a citizen of the
United States, the party so injured or deprived may have an action for the
recovery of damages occasioned by such injury or deprivation, against any
one or more of the conspirators.”
5. This case involves Article III, Section 2, of the U.S Constitution.
6. This case involves USC Amendment VI, which provides, in relevant part,

guarantees the right to a lawyer.

3 | Page

F. NATURE OF RELIEF SOUGHT
The United States Constitution gave to every person having a claim upon a State, a
right to submit his case to the Court of the nation. However unimportant his claim
might be, however little the community might be interested in its decision, the
framers of our constitution thought it necessary for the purposes of justice, to
provide a tribunal as superior to influence as possible, in which that claim might be
decided. Pursuant to Cohens v. Virginia, 19 U.S. (6Wheat) 264, 404, 5 L. Ed 257
(1821), which provides, in relevant part, that, the government of the state and it’s
officers are constitutionally required, affirmed by oaths taken to uphold the U.S.
Constitution and to serve the Citizens, who are the Sovereign, and not to defraud
those Citizens. This case has ruled that State laws in opposition of federal law are
void. This case is most notable for the Supreme Court of the United States assertion
of its power to review state supreme court decisions in criminal law matters when
the defendant claims that their constitutional rights have been violated.
The petitioner seeks all relief deemed necessary and proper based on the
facts set forth in this petition. As a matter of particular law, the petitioner seeks
certiorari review in this Superior decision. The rights conferred on a defendant
accused by the Double Jeopardy Clause would be significantly undermined if
appellate review of double jeopardy claims were postponed until after conviction
4| Page

and sentence. The Double Jeopardy Clause protects an individual against more
than being subjected to double punishments. It is a guarantee against being twice
put to trial for the same offense. The Constitution of the United States, in the Fifth
Amendment, declares, "nor shall any person be subject [for the same offense] to be
twice put in jeopardy of life or limb."

G. STATEMENT OF CASE AND STATEMENT OF FACTS
I.

Introduction

On November 06th, 2018, the petitioner/defendant Kevin Tyrell Beach was
charged by information of a battery due to an alleged incident that occurred
on September 16th, 2018 in Broward County, Florida. On November 15th, 2018,
the petitioner/defendant’s twin brother Kenneth Rashaun Beach Jr. was served
with a summons informing the petitioner/defendant (Kevin Tyrell Beach) that he
has been charged with a violation of a Florida Statute. The summons instructed the
petitioner/defendant that he must attend court on December 18th, 2018 (which was
later transferred from North Satellite Courthouse to Central Courthouse and
arraignment was reset for January 10th, 2019). Kevin Tyrell Beach, an indigent,
layman, and pro se defendant requested for standby counsel to assist him in
abundance of caution (in open court on January 10th, 2019 and on January 31st,
2019- in case he later decides that he is overwhelmed with the legalities and
5 | Page

technicalities of his case). Judge Robert Diaz denied the petitioners requests—
alleging that it would not be fair to an attorney (basing his opinion: “they cannot
really represent the petitioner and have a license to protect”). Judge Robert Diaz in
the lower county tribunal of the 17th Judicial Circuit in Broward County, Florida—
created the impression that he was not concerned about the petitioner’s rights and
made a decision to deny the petitioner “standby counsel" in bad faith.

II.

Factual and Procedural Background

A trial occurred after a jury was impaneled and sworn in, by Judge Robert
Diaz on March 20th, 2019. The indigent petitioner (Kevin Tyrell Beach) was
unrepresented by an attorney throughout his trial. During the trial the petitioner
(Kevin Tyrell Beach) invoked his right to an attorney, after he struggled to
present his case in its best presentable fashion and was informed he would not be
allowed to impeach a particular witness. During the course of the trial, the
petitioner begs for an attorney because he does not know how to proceed. The
Assistant State Attorney requested that the lower tribunal, conduct a Faretta
Inquiry. The lower tribunal refused to conduct a Faretta Inquiry at that subsequent
and crucial stage of the proceeding. The lower tribunal demonstrated his belief that
a manifest necessity for a mistrial has not occurred in the presented case. The
petitioner once again asserts that he needs representation of an attorney and a

6 | Page

professional eye on his case. The lower tribunal asserted that it wouldn’t be fair for
an attorney to be appointed in the middle of the petitioner’s trial. The lower
tribunal seems to be asserting that the petitioner was not entitled to his right to
counsel—regardless if the petitioner was in jeopardy or not. The lower tribunal
appears to be more concerned about fairness and protection of attorney, over the
petitioner’s double jeopardy rights. The lower tribunal refused to appoint the
petitioner with counsel before declaring a mistrial and failed to present any other
alternatives to remedy the prejudice of removing the petitioner’s right to attorney
(ex. providing counsel, offer a continuance, or removing the jeopardy pursuant to
Florida Rules of Criminal Procedure Rule 3.111 b 1). The record reflects that the
lower tribunal has demonstrated an incomplete trial. The lower tribunal thereafter
attempted to negotiate a plea bargain with the petitioner without an attorney
present. The lower tribunal offered an adjudication followed by 20 days in Broward
County Jail. The petitioner rejected the offer and asserted he wanted his
adjudication to come from a particular tribunal (jury). The petitioner requested to
finish the trial with an attorney present so he can properly appeal if necessary. The
lower tribunal also denied that request. It appears the lower tribunal attempted to
goad the layman petitioner into unintelligently- consenting to a mistrial outside
the presence of an attorney. The lower tribunal presented the defendant a “Hobson
Choice” and refused to allow the petitioner to invoke his right to counsel before
7|Page

declaring a mistrial. The lower tribunal induced a declaration of a mistrial as the
ultimate alternative-- to remedy the petitioner’s entitlement of his right to an
attorney. The lower tribunal erroneously declared a mistrial (See Appendix 4a).
The lower tribunal explains why he declared a mistrial. The record doesn’t reflect if
the petitioner consented to a mistrial intelligently, voluntarily, or conferred with,
nor enjoyed his right to an attorney. The record does not reflect the state objecting
or meeting the burden of proving a manifest necessity for a mistrial was necessary.
The petitioner has not enjoyed his valued right to a particular tribunal. This right
was not enjoyed due to the “Bad Faith” conduct of the lower tribunal. The lower
tribunal repeatedly denied the petitioner’s request for standby counsel. The lower
tribunal’s own bad faith conduct resulted in a mistrial—simply because the
petitioner invoked his right to counsel. The lower tribunal did not legally remove
any double ieonardv bar before declaring a mistrial. The petitioner simply invoked
his right to an attorney. The lower tribunal has attempted to obtain evidence of
consent, by initiating “crucial confrontation”, with the petitioner outside the
presence of his attorney. The lower tribunal denied the petitioner of his
right to an attorney before declaring a mistrial. The lower tribunal removed the
petitioner’s ability to rely on the effective assistance, and competent advice of an
attorney. The State has failed to object to a mistrial, thus losing standing in
the case. The lower tribunal failed to conduct a Faretta Inquiry. The lower tribunal
8 | Page

failed to protect the rights of the petitioner before declaring a mistrial. The
petitioner’s liberty is once again placed in jeopardy. The lower tribunal does not
present any legal justification, or any legal consent—which is necessary to remove
the double jeopardy prohibition bar, before declaring a mistrial. The lower tribunal
has no jurisdiction to exercise over Broward County case number: 18002120MM20A.

III.

Requests for Relief of Irreparable Harm and Denials of Access
to the Courts and Justice (Writ Petitions)

The petitioner filed a 21-page petition for a Writ of Prohibition as well as an
18-page appendix of the petition in the Fourth District Court of Appeals of Florida
on January 22nd, 2021. The petitioner’s Writ of Prohibition and its appendix
included evidence exhibits of the record, in which demonstrated a prima facie of an
erroneous declaration of a mistrial (in the lower tribunal for Broward County case
number: 18002120MM20A). The petitioner’s Writ of Prohibition and its appendix
presented evidence that the lower tribunal is in excess of its jurisdiction. The
petitioner Kevin Tyrell Beach sought access to the courts in the Fourth District
Court of Appeals. The access sought by the petitioner was to prevent impairment
and delay of his legal claims of merit -- requesting redress of his injury of
irreparable harm, in which was presented in his petition (Writ of Prohibition). The
petitioner’s Writ of Prohibition notified the Fourth District Court of Appeals of

9 | Page

V

Florida that his constitutional rights are being intruded upon, violated, and in need
of redress (via double jeopardy rights). The lower county tribunal in the 17th
Judicial Circuit would be in excess of its jurisdiction—without an issuance of a Writ
of Prohibition. On February 16th, 2021, the Fourth District Court of Appeals of
Florida entered an order dismissing the petitioner’s Writ of Prohibition, thus
denying the petitioner access to the courts to receive redress, violating the
petitioner’s constitutional rights, and double jeopardy protection relief. This
decision continuously inflicts irreparable harm on the petitioner. The order
suggested that the petitioner is required to get convicted before his rights are
invoked and only if he files a direct appeal (See Appendix 3a). Any other
interpretation would be a moot issue-- if the petitioner is acquitted. The Fourth
District Court of Appeals of Florida presented order is clearly in contradiction with
the constitutions (Florida and United States), as well as cited case authorities. On
February 22nd, 2021 the petitioner filed a Motion for Rehearing, Written Opinion,
and Certification of Questions of Great Public Importance, in which was
erroneously denied by the Fourth District Court of Appeals of Florida on March
18th, 2021 (See Appendix 2a). This decision also appears to be made in error. A
violation of the petitioner's constitutional rights are sufficient irreparable harm to
invoke the Florida Supreme Court's certiorari jurisdiction. On April 07th, 2021 the
petitioner filed a Writ of Certiorari in the Florida Supreme Court in an attempt to
10 | P a g e

have them review the Fourth District Court of Appeals of Florida erroneous
decision. The Florida Supreme Court refused to review the case and erroneously
treated the petitioner’s Writ of Certiorari as a Writ of Mandamus. On May 06th,
2021 the Florida Supreme Court has entered an order dismissing the petitioner’s
petition and denied all future requests for relief in its jurisdiction {See Appendix
la). The petitioner has exhausted all state remedies. The Florida Supreme Court’s
decision conflicts with its own state law, prior decisions, constitutional rights, and
federal law. Thus, the petitioner is being denied access to the courts and justice. The
petitioner is being denied relief and suffers irreparable harm in violation of both his
federal and state constitutional rights. The petitioner under these special
circumstances presented herein, now seeks relief in the United States Supreme
Court. The facts presented herein, are undisputed.

H. SUMMARY OF ARGUMENT
The petitioner contends that his particular case is a clear showing that both his
federal and state constitutional rights are in violation, once again erroneously
placing him in jeopardy, thus creating irreparable harm, in which cannot be
remedied on appeal. The petitioner is clearly being denied access to the courts and
access to justice. The petitioner has exhausted all state remedies and now relies on
the supreme law of the land for protection of his constitutional rights. The

11 | P a g e

petitioner contends that he has equity in the cause and contends that when he has
invoked his right to counsel during his trial, in which the trial judge and state was
prohibited from initiating “crucial confrontation” with the petitioner in absence of
an attorney. Once the right to counsel has attached and been asserted, the State
and court must of course honor it. This means more than simply, that the State and
court cannot prevent the accused from obtaining the assistance of counsel. The
Sixth Amendment also imposes on the State and court an affirmative obligation to
respect and preserve the accused's choice to seek this assistance. The government
has an affirmative obligation not to act in a manner that circumvents and
thereby dilutes the protection afforded bv the right to counsel. The judge
and the state were barred from obtaining evidence or consent from the petitioner in
absence of appointment of an attorney before declaration of a mistrial. The State
and the judge was required to demonstrate a manifest injustice or obtain “legal”,
intelligent consent after jeopardy has attached. These actions were required in
order to remove the double jeopardy prohibition bar before declaring a mistrial.
The State and the judge has failed to adequately lay neither requirement on the
record. Therefore, the State has lost “standing” in the case and the court has lost
jurisdiction in the case. The petitioner is prohibited from being “tried twice”
pursuant to the United States Constitution based on the facts presented in this
case. Without relief from this court the petitioner will essentially be denied access to
12 1 P a g e

the courts for relief and justice, thus continuing irreparable harm and injury upon
the petitioner in violation of his constitutional rights. The petitioner clearly has
equity in this cause. This courts certiorari review will hopefully provide relief for
the petitioner in this cause.

I. REASONS FOR GRANTING THE WRIT
l.Argument and Citations of Law
I adopt all the argument presented in the Appendix exhibits presented herein
this writ. As an aid to the decision of cases in which the prohibition of the Double
Jeopardy Clause has been invoked, the courts have found it useful to define a point
in criminal proceedings at which the constitutional purposes and policies are
implicated by resort to the concept of "attachment of jeopardy." See United States u.
Jorn. suvra. at 480. In the case of a jury trial, jeopardy attaches when a jury is
empaneled and sworn. Downum v. United States. 372 U. S. 734 (1963): Illinois v.
Somerville. 410 U. S. 458 (1973). The aspects of the double jeopardy guarantee's
protections would be lost if the accused were forced to "run the gauntlet" a
second time before an appeal could be taken. If the accused is acquitted, or, if
convicted, has his conviction ultimately reversed on double jeopardy grounds, he
has still been forced to endure a trial that the Double Jeopardy Clause was
designed to prohibit. Consequently, if a criminal defendant is to avoid exposure to

13 | P a g e

double jeopardy and thereby enjoy the full protection of the Clause, his double
jeopardy challenge must be reviewable before that subsequent exposure occurs.
Accord, Breed v. Jones. 421 U. S. 519. 529-530 (1975): Serfass v. United States. 420
U. S. 377. 387-388 (1975): Jorn. supra. at 479. Pursuant to Cooper v. Aaron. 358
U.S. 1. 78 S. Ct. 1401 (1958) stated above at items 46 and 47: “No state legislator
executive or judicial officer can war against the Constitution without violating his
undertaking to support it.” Petitioner Kevin Tyrell Beach believes that the facts
presented in the record of this instant case are indicative of the Florida courts
warring against the constitution in that the Florida Courts have continuously ruled
in clear prejudice of petitioners, in opposition of the law and constitutions, thus
violating enunciated constitutional rights of petitioners in said constitution. There
are simply no further steps that can be taken in the state court to avoid the trial the
defendant maintains is barred by the Fifth Amendment's guarantee. The very
nature of a double jeopardy claim is such that it is collateral to, and separable from,
the principal issue at the accused's impending criminal trial, whether or not the
accused is guilty of the offense charged. The rights conferred on a criminal accused
by the Double Jeopardy Clause would be significantly undermined if appellate
review of double jeopardy claims were postponed until after conviction and
sentence. See Abney v. United States. 431 U.S. 651 (1977). The holding
of Abney becomes highly relevant; by analogy, if a Member "is to avoid exposure to
14 | P a g e

[being questioned for acts done in either House] and thereby enjoy the full
protection of the Clause, his . . . challenge to the indictment must be reviewable
before . . . exposure [to trial] occurs." Abney, supra. at 662. Granting certiorari.
Exceptional circumstances amounting to a judicial 'usurpation of power’ will justify
the invocation of this extraordinary remedy. The trial courts decision had involved
an important right which would be "lost, irreparably," if review had to await final
judgment; hence, to be effective, appellate review in that special, limited setting had
to be immediate. Re-prosecution after a mistrial has unnecessarily been declared by
the trial court obviously subjects the defendant to the same personal strain and
insecurity regardless of the motivation underlying the trial judge’s action. Where
the judge, acting without the defendant's consent, aborts the proceeding, the
defendant has been deprived of his "valued right to have his trial completed by a
particular tribunal." See Wade v. Hunter. 336 U, S.. at 689. United States v. Jorn.
400 US 470 - Supreme Court 1971. Because jeopardy attaches before the judgment
becomes final, the constitutional protection also embraces the defendant's "valued
right to have his trial completed by a particular tribunal." The reasons why this
"valued right" merits constitutional protection are worthy of repetition. Even if the
first trial is not completed, a second prosecution may be grossly unfair. It increases
the financial and emotional burden on the accused, prolongs the period in which he
is stigmatized by an unresolved accusation of wrongdoing, and may even enhance
15 | P a g e

the risk that an innocent defendant may be convicted. The danger of such
unfairness to the defendant exists whenever a trial is aborted before it is
completed. Consequently, as a general rule, the prosecutor is entitled to one, and
only one, opportunity to require an accused to stand trial. In view of the importance
of the right, and the fact that it is frustrated by any mistrial, the prosecutor must
shoulder the burden of justifying the mistrial if he is to avoid the double jeopardy
bar. His burden is a heavy one. The prosecutor must demonstrate "manifest
necessity" for any mistrial declared. Nevertheless, those words do not describe a
standard that can be applied mechanically or without attention to the particular
problem confronting the trial judge. The Double Jeopardy Clause does protect a
defendant against governmental actions intended to provoke mistrial requests and
thereby to subject defendants to the substantial burdens imposed by multiple
prosecutions. It bars retrials where 'bad-faith conduct by judge or prosecutor’. Thus,
if a trial judge acts irrationally or irresponsibly, See United States v. Jorn,
supra: see Illinois v. Somerville. 410 U. S.. at 469. Oregon v. Kennedy. 456 U.S. 667
(1982). his action cannot be condoned. The petitioner simply invoked his “right to
counsel” a right he is afforded by the state and federal constitution. A right that did
not provoke a “manifest injustice” in this particular case nor “open the door” for the
judge to initiate crucial confrontation to erroneously obtain illegitimate consent
from a defendant in absence of his attorney. The right to the assistance of counsel
16 | P a g e

guaranteed by the Sixth and Fourteenth Amendments is indispensable to the fair
administration of our adversarial system of criminal justice. Embodying "a realistic
recognition of the obvious truth that the average defendant does not have the
professional legal skill to protect himself," Johnson v. Zerbst, 304 U. S. 458, 462-463
(1938), the right to counsel safeguards the other rights deemed essential for the fair
prosecution of a criminal proceeding. Justice Sutherland’s oft-quoted explanation in
Powell v. Alabama. 287 U. S. 45 (1932). bears repetition here:
"The right to be heard would be, in many cases, of little avail if it did not
comprehend the right to be heard by counsel. Even the intelligent and educated
layman has small and sometimes no skill in the science of law. If charged with
crime, he is incapable, generally, of determining for himself whether the indictment
is good or bad. He is unfamiliar with the rules of evidence. Left without the aid of
counsel he may be put on trial without aproper charge, and convicted upon
incompetent evidence, or evidence irrelevant to the issue or otherwise inadmissible.
He lacks both the skill and knowledge adequately to prepare his defense, even though
he have a perfect one. He requires the guiding hand of counsel at every stage of the
proceedings against him."Id., at 68-69 (quoted in Gideon v. Wainwright, 372 U. S.
335, 344-345(1963)”
Once the right to counsel has attached and been asserted, the government must of
course honor it. This means more than simply that the government cannot prevent
the accused from obtaining the assistance of counsel. The Sixth Amendment also
imposes on the government an affirmative obligation to respect and preserve the
accused's choice to seek this assistance. The government has an affirmative
obligation not to act in a manner that circumvents and thereby dilutes the
protection afforded bv the right to counsel. Therefore, because the state or

17 | P a g e

trial court failed to obtain legal consent, demonstrate a manifest injustice, or
remove the jeopardy pursuant to rule 3.111 of the Florida Rules of Criminal
Procedure, they have failed to remove the double jeopardy bar attached after the
jury was sworn in and impaneled.

J. ISSUES PRESENTED (CONFLICTS WITH AUTHORITY CASELAW)
The petitioner demonstrates that the dismissal of his Writ of Certiorari in the
Florida Supreme Court goes directly against its own prior ruling. Thus, makes it
apparent that a bias is projected unto the petitioner and denies him access to the
courts and justice in contradiction of the law -- with no actual lav/ supporting its
decision. The Florida Supreme Court has somehow erroneously chosen to treat the
petitioner’s “Writ of Certiorari” as a “Writ of Mandamus”, yet presents no
justification into why they erroneously chosen to make that decision. In the State of
Florida the Supreme Court in Belair v. Drew 770 So.2d 1164 (2000) clearly
demonstrated that the district court in Belair v. Drew. 734 So.2d 1190 (Fla. 5th
DCA 1999) certified conflict with Williams v. Spears. 719 So.2d 1236 (Fla. 1st DCA
1998) which held that certiorari review should be granted where a party’s
constitutional rights mav be abridged by the continuance of the
proceedings below and, therefore, such abridgement could not be

18 | P a g e

remedied on final appeal.

K. CONCLUSION
An answer to the questions presented herein will have an impact on the
public and pro se litigant’s that are in need of assistance in Florida courts. The
Florida court system and its decisions presented herein this writ, appears that the
courts appear to “straddle the fence” on deciding to protect a citizen’s constitutional
rights. The answer to these questions will provide clear guidance to Florida Courts
when it comes to the violation of a citizen’s constitutional rights and requires them
to commit to a decision that is in compliance with the law, and inescapable through
semantics with sovereign state laws and the conflicts with federal law. Florida
courts seem to come to different conclusions with laws that mean the same exact
thing-- depending on who the litigant is and their status. Certiorari review under
these extraordinary circumstances is necessary to redress the petitioner’s claims.
The present dispute remains a live one. “Article III of the Constitution grants the
Judicial Branch authority to adjudicate ‘Cases’ and ‘Controversies.’ Generally,
“those who invoke the power of a federal court” must “demonstrate standing—a
‘personal injuiy fairly traceable to the defendant's allegedly unlawful conduct and
likely to be redressed by the requested relief.’ ” Id., quoting Allen v. Wrisht. 468

19 | P a g e

U.S. 737. 751 (1984). “[A]n actual controversy must be extant at all stages of
review, not merely at the time the complaint is filed.” Steffel v. Thomvson. 415 U.S.
452. 459 n.10 (1974). Younser v. Harris. 401 U. S. 37 (1971). made it clear that
irreparable injury must be measured by bad faith harassment, and such a test must
be applied to a request for injunctive relief against threatened, as well as pending,
state court criminal prosecution; and that it followed from the reasoning of Samuels
v. Mackell. 401 U. S. 66,( 1971) that the same test of bad faith harassment is a
prerequisite for declaratory relief with respect to a threatened prosecution.
Petitioner Kevin Tyrell Beach maintains throughout this petition that his
prosecution is barred by the Double Jeopardy Clause of the Fifth Amendment to the
United States Constitution, there is a live case and controversy. For the foregoing
reasons, the petition for a writ of certiorari and all other relief deemed necessary
and proper should be granted.

20 | P a g e

